Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  THE MEDICARE CONTRACTOR
     FOR JURISDICTION 10
   OVERPAID PROVIDERS FOR
 SELECTED OUTPATIENT DRUGS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                           Brian P. Ritchie
                                     Assistant Inspector General

                                               April 2014
                                             A-04-13-00090
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The Medicare contractor for Jurisdiction 10 overpaid providers by $1.1 million for selected
 outpatient drugs over 3 years. Providers identified additional overpayments of $57,000 as a
 result of our review.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that the Medicare contractor for
Jurisdiction 10 made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

During our audit period (July 1, 2009, through June 30, 2012), Cahaba Government Benefit
Administrators, LLC (Cahaba), was the Medicare contractor for Jurisdiction 10 (Alabama,
Georgia, and Tennessee). The Medicare contractor paid providers $710.6 million for 3.6 million
line items for selected outpatient drugs. We reviewed 998 line items with total payments of
$5.9 million that were at risk for overpayment.

WHAT WE FOUND

Payments that the Medicare contractor for Jurisdiction 10 made to providers for 492 of the 998
line items for outpatient drugs we reviewed were not correct. These incorrect payments resulted
in overpayments of $1,162,312 and underpayments of $20,065. Providers had not identified and
refunded any overpayments for these line items before our fieldwork. The remaining 506 line
items were correct.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                i
For the 477 incorrect line items with overpayments of $1,162,312 that had not been refunded,
providers reported a combination of incorrect units of service and incorrect HCPCS codes,
reported incorrect units of service, billed separately for an outpatient drug for which payment
was packaged with the primary service, did not provide supporting documentation, and used
incorrect HCPCS codes. For the 15 incorrect line items with underpayments of $20,065 that had
not been adjusted, we notified the providers of the underpayments so that they could decide
whether to submit adjustment claims. Providers also identified errors on 87 additional line items
that we did not review that resulted in net overpayments of $57,201: 78 line items with
overpayments of $58,491 and 9 line items with underpayments of $1,290.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because there were insufficient edits in place to prevent or
detect overpayments.

WHAT WE RECOMMEND

We recommend that Cahaba:

    •   recover the $1,162,312 in identified overpayments,

    •   verify the payment of $20,065 in identified underpayments,

    •   verify the recovery of an additional $58,491 in provider-identified overpayments and
        payment of $1,290 in provider-identified underpayments, and

    •   use the results of this audit in its ongoing provider education activities.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba concurred with our recommendations and
described corrective actions that it had taken or planned to take to address them.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 Cahaba Government Benefit Administrators, LLC ...........................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................3

           Federal Requirements ....................................................................................................4

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes .................5
                  Incorrect Number of Units of Service ................................................................5
                  Billed Separately for Packaged Services ...........................................................6
                  Lack of Supporting Documentation ...................................................................6
                  Incorrect Healthcare Common Procedure Coding System Codes ....................6

           Underpayments to Providers That Billed Incorrectly ....................................................7

           Additional Overpayments and Underpayments Identified by Providers .......................7

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................8

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS ..............8

APPENDIXES

           A: Related Office of Inspector General Reports: Jurisdiction 10 ................................9

           B: Audit Scope and Methodology...............................................................................10




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                                                           iii
        C: Federal Requirements Related to Medicare Contractor Payment and
             Provider Billing for Selected Outpatient Drugs ..................................................12

        D: Cahaba Government Benefit Administrators, LLC, Comments ............................14




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                             iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction 10.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractor for Jurisdiction
10 made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient

1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of our reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                                1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.

Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care




4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to the Medicare contractors.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                               2
organizations the opportunity to review and comment on the proposed edits. Medicare
contractors must include the medically unlikely edits in their payment systems. 7

Cahaba Government Benefit Administrators, LLC

During our audit period (July 1, 2009, through June 30, 2012), Cahaba Government Benefit
Administrators, LLC (Cahaba), was the Medicare contractor for Jurisdiction 10 (Alabama,
Georgia, and Tennessee).

HOW WE CONDUCTED THIS REVIEW

During our audit period, the Medicare contractor for Jurisdiction 10 paid providers
$710.6 million for 3.6 million line items for selected outpatient drugs. We reviewed 998 line
items 8 with total payments of $5,939,107 that were at risk for overpayment. These line items
were for outpatient drugs with payment status indicator code “G” or “K.” 9 We used computer
matching, data mining, and other analytical techniques to identify the line items potentially at
risk for noncompliance with Medicare billing requirements. We evaluated compliance with
selected billing requirements, but we did not use medical review to determine whether services
were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.

                                                       FINDINGS

Payments that the Medicare contractor for Jurisdiction 10 made to providers for 492 of the 998
line items for outpatient drugs we reviewed were not correct. These incorrect payments resulted
in overpayments of $1,162,312 and underpayments of $20,065. Providers had not identified and
refunded any overpayments for these line items before our fieldwork. The remaining 506 line
items were correct.



7
 CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.
8
    In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
9
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                                3
For the 477 incorrect line items with overpayments of $1,162,312 that had not been refunded,
providers:

    •   reported a combination of incorrect units of service and incorrect HCPCS codes on
        277 line items, resulting in overpayments of $542,893;

    •   reported incorrect units of service on 165 line items, resulting in overpayments of
        $519,861;

    •   billed separately for an
        outpatient drug for which                          Overpayment by Error Type
        payment was packaged with
                                                                                     Packaged
        the primary service on                    Incorrect Units                     Services
        19 line items, resulting in                  $519,861                         $61,769
                                                                                                     Lack of
        overpayments of $61,769;                                                                  Documentation
                                                                                                     $35,249
    •   did not provide supporting
        documentation for 12 line
        items, resulting in                                                                      Incorrect HCPCS
        overpayments of $35,249;                                                                      Code
                                                                                                     $2,540
        and
                                                                                         Incorrect Units
    •   used incorrect HCPCS                                                             & HCPCS Code
        codes on 4 line items,                                                              $542,893

        resulting in overpayments
        of $2,540.

For the 15 incorrect line items with underpayments of $20,065 that had not been adjusted, we
notified the providers of the underpayments so that they could decide whether to submit
adjustment claims. Providers also identified errors on 87 line items that we did not review that
resulted in net overpayments of $57,201: 78 line items with overpayments of $58,491 and 9 line
items with underpayments of $1,290.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because neither the CWF nor the FISS had sufficient edits in
place to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital
outpatient services. They require that providers submit accurate and complete bills to Medicare




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                             4
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 10

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Combination of Incorrect Number of Units of Service and Incorrect Healthcare Common
Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
277 line items. These errors resulted in overpayments of $542,893.

For example, 20 providers billed Medicare on 274 line items for 2 to 12 units of service for
leuprolide acetate injections (HCPCS code J1950, 3.75 milligrams per unit), which is indicated
for the treatment of endometriosis, uterine leiomyoma, and malignant neoplasm of the breast.
However, the providers should have billed Medicare for 1 to 6 units of service for leuprolide
acetate injections (HCPCS code J9217, 7.5 milligrams per unit), which is indicated for the
treatment of prostate cancer and was the dose actually administered. As a result of these errors,
the Medicare contractor paid the provider $675,353 when it should have paid $133,205, an
overpayment of $542,148.

In total, the Medicare contractor paid 21 providers $678,722 when it should have paid $135,829,
an overpayment of $542,893.

Incorrect Number of Units of Service

Providers reported incorrect units of service on 165 line items, resulting in overpayments of
$519,861. The incorrect units of service involved 43 different outpatient drugs. The following
are examples:

       •   One provider administered one dose of iodine i-131 tositumomab to a patient and billed
           for 2 units of service. Using the HCPCS description of iodine i-131 tositumomab (iodine
           i-131 tositumomab, therapeutic, per treatment dose), the correct number of units to bill
           for one dose was 1 unit. On six separate occasions, this type of error occurred, and as a
           result, the Medicare contractor paid the provider $187,912 when it should have paid
           $91,879, an overpayment of $96,033.

       •   Another provider administered 14 units of caspofungin acetate to a patient and billed for
           140 units of service. Similar errors occurred on 28 line items. As a result, the Medicare
           contractor paid the provider $36,911 when it should have paid $3,615, an overpayment of
           $33,296.

10
     These requirements are found in the Act, section 1833(e), and the Manual, chapter 17, section 90.2.A.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                       5
In total, the Medicare contractor paid 54 providers $907,258 when it should have paid $387,397,
an overpayment of $519,861.

Billed Separately for Packaged Services

For selected outpatient drugs that have multiple HCPCS codes, providers billed Medicare on
19 line items using the HCPCS code that Medicare pays separately instead of the HCPCS code
that Medicare does not pay separately, resulting in overpayments of $61,769. These line items
involved three different packaged outpatient drugs.

Medicare pays for outpatient drugs that are considered primary procedures but does not pay
separately for outpatient drugs when their payment is packaged in the payment of a primary
procedure. Medicare has different HCPCS codes for similar drugs to distinguish which are paid
separately and which are not paid separately.

For example, two providers billed Medicare for the lipid formulation of doxorubicin
hydrochloride (HCPCS code J9001) rather than the nonlipid formulation of doxorubicin
hydrochloride (HCPCS code J9000), the drug actually administered. During the dates of service
that each provider administered this drug, Medicare packaged the nonlipid formulation in the
payment for related chemotherapy and did not provide for separate reimbursement under the
OPPS. On 17 separate occasions, this error occurred; as a result, the Medicare contractor paid
the providers $58,138 when it should have paid $0, an overpayment of $58,138.

In total, the Medicare contractor paid four providers $61,769 for packaged drugs when it should
have paid $0, an overpayment of $61,769.

Lack of Supporting Documentation

Seven providers billed Medicare on 12 line items for which the providers did not provide any
documentation to support that a patient had received the drug service billed. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $35,249 in overpayments that they received.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on four line items, resulting in overpayments of $2,540.

For example, one provider billed Medicare on two line items for 3 units of service for leuprolide
acetate injections (HCPCS code J1950, 3.75 milligrams per unit), which is indicated for the
treatment of endometriosis, uterine leiomyoma, and malignant neoplasm of the breast. However,
the provider should have billed for 3 units of service for leuprolide acetate injections (HCPCS
code J9217, 7.5 milligrams per unit), which is indicated for the treatment of prostate cancer and
was the dose actually administered. As a result of these errors, the Medicare contractor paid the
provider $2,958 when it should have paid $969, an overpayment of $1,989.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)            6
In total, the Medicare contractor paid three providers $3,848 when it should have paid $1,308, an
overpayment of $2,540.

UNDERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY

Seven providers billed Medicare on 15 line items for outpatient drug services that included
incorrect units of service or a combination of incorrect units of service and incorrect HCPCS
codes, resulting in underpayments of $20,065. We identified these underpayments and notified
the providers so that they could decide whether to submit adjustment claims for the
underpayment amounts.

ADDITIONAL OVERPAYMENTS AND UNDERPAYMENTS IDENTIFIED BY
PROVIDERS

Four providers identified errors on 87 line items that we did not review that resulted in net
overpayments of $57,201: 78 line items with overpayments of $58,491 and 9 line items with
underpayments of $1,290. The providers identified these errors as a result of our review. These
line items were either outside our audit period or were for quantities that we did not select for
review.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
systems errors included chargemaster 11 errors and other system errors.

The Medicare contractor overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
providers to notify the Medicare contractor of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 12

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.




11
   A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including
(1) a factor that converts a drug’s dosage to the number of units to bill and (2) whether to charge for waste.
12
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed the approved amount, the Medicare
payment, and the amount due from the beneficiary.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                               7
                                       RECOMMENDATIONS

We recommend that Cahaba:

    •   recover the $1,162,312 in identified overpayments,

    •   verify the payment of $20,065 in identified underpayments,

    •   verify the recovery of an additional $58,491 in provider-identified overpayments and
        payment of $1,290 in provider-identified underpayments, and

    •   use the results of this audit in its ongoing provider education activities.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba concurred with our recommendations and
described corrective actions that it had taken or planned to take to address them.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)         8
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                           JURISDICTION 10

                                                                           Report           Date
                            Report Title
                                                                           Number          Issued

   The Medicare Contractors’ Payments in Jurisdiction 10               A-04-12-03070     1/25/2013
   for Full Vials of Herceptin Were Often Incorrect

   Review of Medicare Payments Exceeding Charges for                   A-04-10-06121     11/22/2011
   Outpatient Services Processed by Cahaba Government
   Benefit Administrators, LLC, in Jurisdiction 10 for the
   Period January 1, 2006, Through December 31, 2007

   Review of Medicare Payments Exceeding Charges for                   A-04-10-06127     11/22/2011
   Outpatient Services Processed by Cahaba Government
   Benefit Administrators, LLC, in Jurisdiction 10 for the
   Period January 1, 2008, Through June 30, 2009

   Review of High-Dollar Payments for Medicare Part B                  A-04-07-06026     9/04/2008
   Claims Processed by Palmetto GBA, Railroad Benefit
   Contractor #882, for the Period January 1, 2004,
   Through December 31, 2006

   Review of High-Dollar Payments for Inpatient and                    A-04-07-07020     10/08/2008
   Outpatient Claims Processed by Riverbend Government
   Benefits Administrator for Calendar Years 2004 and
   2005




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                9
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractor for
Jurisdiction 10 paid providers $710.6 million for 3.6 million line items for selected outpatient
drugs. We reviewed 998 line items, totaling $5,939,107, that the Medicare contractor paid to
85 providers. 13 We did not review entire claims; rather, we reviewed specific line items within
the claims. These line items included selected outpatient drugs with payment status indicator
code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that include a pass-
through payment. 14 “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals,
brachytherapy sources of radiation, blood, and blood products paid using the OPPS without a
pass-through payment.

We did not review the overall internal control structure of the Medicare contractor or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractor’s internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from October 2012 through March 2013 and performed fieldwork by
contacting Cahaba in Birmingham, Alabama, and 85 providers that received the selected
Medicare payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with status indicator code “G” or “K”) for which
         Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single


13
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.
14
  Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount schedule.


Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)                               10
        date of service because these line items were at risk for noncompliance with Medicare
        billing requirements;

    •   selected 998 line items at risk of error, totaling $5,939,107, that the Medicare contractor
        paid to 85 providers;

    •   requested that 85 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to claims due to changes in the
        allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractor;

    •   discussed the results of our review with providers and the Medicare contractor; and

    •   summarized the results of overpayments for line items that were not included in our
        review but were identified by the provider as a result of our audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)              11
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
              CONTRACTOR PAYMENT AND PROVIDER BILLING
                    FOR SELECTED OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CMS GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)             12
The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”

The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug for
which an “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must: “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must: “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A-04-13-00090)             13
                            APPENDIX D: CAHABA GOVERNMENT BENEFIT 

                                ADMINISTRATORS, LLC, COMMENTS 





                 ®
    CAHABA
GOVERNMENT 

    BENEFIT 

AOMI NISTRATORS, LLC 





      March 3, 2014


      US Department of Health and Human Services 

      Office of the Inspector General 

      Office of Audit Services, Region IV 

      Attention: Lori S. Pilcher, Regional Inspector General for Audit Services 

      61 Forsyth St., SW, Suite 3T41 

      Atlanta, GA 30303 



      RE: The Medicare Contractor for Jurisdiction 10 Overpaid Providers for Selected Outpatient Drugs
      (Report Number A-04-13-00090)


      Dear Ms. Pilcher:

      We appreciate the opportunity to respond to the above mentioned draft report. Cahaba has reviewed the
      report and the following actions have taken/will take place to address each recommendation:

           1. 	 Recover the $1, 162,312 in identified overpayments: Cahaba concurs with this recommendation
                and upon receipt of the claims data will adjust and collect overpayments accordingly.

           2. 	 Verity the payment of$20,065 in identified underpayments: Cahaba concurs with this
                recommendation and upon receipt of claims data will review to verity underpayment and remit
                verified amounts to the respective providers.

           3. 	 Verity the recovery of an additional $58,491 in provider-identified overpayments and payment of
                $1,290 in provider-identified underpayments: Cahaba concurs with this recommendation and
                upon receipt of claims data will review to verity overpayments and underpayments and process
                adjustments to collect or remit to the respective providers.

           4. 	 Use the results of this audit in its ongoing provider education activities: The results of this audit
                will be included in our education plan for J 10 providers. This will include an article in our
                Newslines, listserv notification and discussion in upcoming Provider Outreach Part B events.

      In addition to the actions noted in our response to each recommendation Cahaba has implemented/
      completed the following:

           • 	 For high dollar edits, we run data monthly in medical review to determine if any of the high
               dollar claims will be probed based on number of claims, CPT and specialty of the provider. We


     Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A 04 13 00090)                        14
                                      Cahaba Government Benefit Administrators"', LLC 

                                 500 Corporate Parkway • Birmingham, Alabama 35242-5448 

                                            A CMS Medicare Administrative Contractor 

         have also implemented the LCA on compound drugs in June/20 13 which were a high volume of
         high dollar claims that are now priced by the article.

    • 	 Cahaba has an article outlining covered conditions on and off label for our highest billed
        chemotherapy drugs; each with an associated ICD-9 . For the covered conditions, we research the
        appropriate ICD-9 codes. Covered conditions would include FDA approved and those we through
        review of 'literature' have added as 'off label'.

    • 	 Codes are set to pay for approved diagnosis codes. If there is not a price in the system then the
        medical Director will review and price the claim.

    • 	 To ensure claims of not otherwise classified (NOC) drug codes are paid for covered conditions
        the claims would suspend and go to Medical Review for pricing or review.



    If you should have any questions regarding this report, please contact me at (205)220-1957 or via
    email at lbramer@cahabagba.com.



    Sincerely




    Lisa Bramer
    Internal Audit Manager
    Cahaba Government Benefit Administrators®, LLC




Medicare Overpayments in Jurisdiction 10 for Selected Outpatient Drugs (A 04 13 00090)                      15
